                                                           OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 3) Version 2.0
                 Reporting OIG: Department of State ‐ OIG
            Month Ending Date: 05/31/2009
              Submitter Name: Cynthia Saboe
         Submitter Contact Info: saboec@state.gov, 202‐663‐0367

                                                           Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau            Recovery Act TAFS             Sub‐Account     Award Type       US Indicator        State Code       Total Obligations   Total Gross 
                                                                   Code (OPTIONAL)                                     (ONLY for grants                          Outlays
                                                                                                                       and cooperative 
No.                                                                                                                      agreements)
      Department of State ‐ OIG   (19‐0530 2009 \ 2010) State ‐                                                                                   $0               $0 
  1                               OIG ‐ Recovery Act
  2
  3
  4
  5
  6
  7
  8
 9
10


                                               Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Non‐Recovery Act TAFS            Sub‐Account     Total FY 2009    Total FY 2009     Total FY 2010      Total FY 2010 
                                                                   Code (OPTIONAL)    Obligations     Gross Outlays      Obligations       Gross Outlays
No.
  1 Department of State ‐ OIG     (19-0529 2009) State - OIG
  2
  3
  4
  5
  6
  7
  8
 9
10




                                                                                                                           State OIG ARRA Monthly Report May 2009.xlsx
                                              OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 3) Version 2.0
       Reporting OIG: Department of State ‐ OIG
   Month Ending Date: 5/31/2009
     Submitter Name: Cynthia Saboe

Submitter Contact Info: saboec@state.gov, 202‐663‐0367


     Recovery Act New Hires                    Flash Reports                       Testimonies:
      Hired (monthly):                    Issued (monthly):                 Provided (monthly):

   Hired (cumulative):                 Issued (cumulative):               Provided (cumulative):


           Complaints              Whistleblower Reprisal Allegations              Investigations            Audits / Inspections / Evaluations / 
                                                                 Monthly Data
            Received:                           Received:                               Opened:                              Initiated:
                                               Accepted:                                  Active:                          In Process:      1
                                                                                Pending Decision:                         Completed:

                                                                          Closed without Action:
                                                                                   Accepted for 
                                                                                   Prosecution:
                                                                            Prosecution Denied:

                                                                                    Referred for 
                                                                         Alternative Resolution:
                                                         Cummulative Data Since 2/17/09

            Received:                             Received:               Closed without Action:                          Completed:

                                                                                   Accepted for 
                                                  Accepted:
                                                                                   Prosecution:
                                                                            Prosecution Denied:

                                                                                    Referred for 
                                                                         Alternative Resolution:


                                                                                                    State OIG ARRA Monthly Report May 2009.xlsx
                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 3) Version 2.0
     Reporting OIG: Department of State ‐ OIG
 Month Ending Date: 05/31/2009
   Submitter Name: Cynthia Saboe
  Submitter Contact 
                     saboec@state.gov, 202‐663‐0367
               Info:

       No.                  OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1           Submitted final oversight plan to OMB and GSA
        2
        3
        4
        5
        6
        7
        8
        9
       10

       No.                              OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
        1           Update Hotline posters and website reporting mechanisms to facilitate reporting of ARRA-related allegations
        2           Initiate audits of Department and IBWC tracking and oversight of ARRA funding
        3           Review open recommendations for lessons learned and best practices on contracts/grants/acquisitions
        4           Incorporate ARRA-related fraud awareness issues into audit and investigative briefings and training
                    Conduct survey of contract and grant staffing and qualifications, in coordination with RATB and IG
        5
                    community
        6
        7
        8
        9
       10



                                                                                                State OIG ARRA Monthly Report May 2009.xlsx
